                SEMIANNUAL
                REPORT

                April 1, 2013 –
                September 30, 2013




November 2013                  OIG-14-1SP
                                               United States Government Accountability Office




Memorandum
Date:           November 13, 2013

To:             Comptroller General Gene L. Dodaro

From:           Inspector General Adam R. Trzeciak

Subject:        Semiannual Report—April 1, 2013, through September 30, 2013

I am submitting this report in accordance with Section 5 of the Government Accountability
Office Act of 2008 (GAO Act).1 The report summarizes the activities of the Office of
Inspector General (OIG) for the second reporting period of fiscal year 2013.

The act requires that you transmit the report to Congress within 30 days after receipt. Your
transmittal should also include any comments you consider appropriate.

During this reporting period, the OIG issued one audit report and began work on three
audits. The OIG closed nine investigations and opened seven investigations. The OIG also
processed 192 hotline complaints, which generally involved other federal and state
programs. OIG staff briefed international audit fellows and select GAO employees on our
office’s audit and investigative functions. Details of these activities and other OIG
accomplishments are provided below.

I appreciate management’s support and want to thank GAO’s Executive Committee,
managers, and staff for their cooperation during our reviews. The OIG’s team of dedicated
professionals remains committed to helping GAO improve the services it provides for
American taxpayers. The accomplishments reported in this letter are the direct result of their
efforts.




1
31 U.S.C. § 705 (2012).



                                                               OIG-14-1SP Semiannual Report
INTRODUCTION

THE UNITED STATES GOVERNMENT ACCOUNTABILITY OFFICE

GAO is the audit, evaluation, and investigative arm of the Congress. It supports
congressional oversight by (1) auditing agency operations to determine whether federal
funds are being spent efficiently and effectively; (2) investigating allegations of illegal and
improper activities; (3) reporting on how well government programs and policies are meeting
their objectives; (4) performing policy analyses and outlining options for congressional
consideration; and (5) issuing legal decisions and opinions, such as bid protest rulings and
reports on agency rules.


THE OFFICE OF INSPECTOR GENERAL

Established as a statutory office by the GAO Act of 2008,2 GAO’s OIG independently
conducts audits, evaluations, and other reviews of GAO programs and operations and
makes recommendations to promote the agency’s economy, efficiency, and effectiveness.
The OIG also investigates allegations of potential fraud, waste, abuse, mismanagement,
and other serious problems in GAO's programs and operations including the possible
violation of any law or regulation.




2
31 U.S.C. § 705 (2012).



2                                                              OIG-14-1SP Semiannual Report
ACTIVITIES OF THE OFFICE OF INSPECTOR GENERAL

AUDITS

We issued a report evaluating the extent to which GAO has established effective policies
and procedures (controls) to review and validate top secret security clearance requirements.
(See the attachment for a report summary.) In addition, we began fieldwork to assess the
effectiveness of GAO’s controls over its purchase card program. We also initiated audits of
GAO’s undercover funds and Federal Employees’ Compensation Act program.

COMPLAINTS AND INVESTIGATIONS

The OIG’s hotline continues to be our primary source of complaints or information for
identifying suspected fraud and other serious problems, abuses, and deficiencies relating to
the administration of GAO’s programs and operations. As shown in table 1, we processed
192 hotline complaints during this 6-month reporting period. Of those, 7 complaints led to
OIG investigations.


Table 1: Summary of OIG Hotline Complaint Activities, April 1, 2013, through September 30, 2013

 Hotline complaints open at the start of the reporting period                                                                7
 New hotline complaints received this reporting period                                                                  185
 Total hotline complaints                                                                                               192
 Complaints closed (referred to other GAO offices)                                                                           4
                                             a
 Complaints closed (referred to FraudNet )                                                                               23
 Complaints closed (insufficient information/no basis)                                                                   94
 Complaints closed (no jurisdiction and referred to appropriate agency OIG or other
 law enforcement officers)                                                                                               31
 Complaints closed (converted to investigations)                                                                             7
 Total hotline complaints open at the end of the reporting period                                                        33
Source: OIG.
a
 FraudNet is a governmentwide hotline operated by GAO staff that receives complaints of fraud, waste, and abuse of federal
funds spent by other federal agencies.


Table 1 identifies 94 complaints that were closed due to insufficient information or no basis
upon which to open an investigation. These complaints generally involved other federal and
state programs, not GAO programs and operations. We report them here because typically,
the OIG spends considerable time evaluating the issues contained in a complaint in order to
redirect the complainant to the appropriate administrative or law enforcement organization
with proper jurisdiction over the allegations in the complaint.

As shown in table 2, there were 23 open investigations during this reporting period. At the
end of the reporting period, 14 investigations remained open.




3                                                                                  OIG-14-1SP Semiannual Report
Table 2: Summary of OIG Investigations, April 1, 2013, through September 30, 2013

 Investigations open at the start of the reporting period                                    16
 New investigations initiated this reporting period                                            7
 Total investigations                                                                        23
 Investigations closed this reporting period                                                   9
 Total investigations open at the end of the reporting period                                14
Source: OIG.



The nine investigations we closed involved a range of allegations, including unauthorized
disclosure of GAO internal documents, timecard irregularities, impersonating GAO
employees for personal gain, falsifying hiring documents, and mishandling privacy
information. Eight of the nine investigations were closed because the allegations could not
be substantiated; we closed the other one, an administrative investigation, when an
employee resigned during the investigation.

OTHER ACTIVITIES

ACTIVITIES WITHIN GAO

The IG discussed the duties, responsibilities, and authorities of federal Inspectors General
with participants in GAO’s International Auditor Fellowship Program. In addition, the
Assistant IG for Investigations (AIGI) conducted an integrity awareness briefing with a
mission team to raise the awareness of the IG’s authority and role at GAO, the OIG Hotline
and its purpose. The IG’s Counsel collaborated with GAO’s Learning Center to revise the
agency’s fraud awareness course for agency staff.

The OIG processed five Freedom of Information Act requests, which we addressed in
accordance with procedures set forth in 4 C.F.R. Part 81. In addition, we responded to two
congressional requests for information on (1) open and unimplemented recommendations
and (2) closed investigations, audits, and evaluations that were not publicly disclosed.

ACTIVITIES WITHIN THE INSPECTOR GENERAL COMMUNITY

The OIG participated in the Council of Inspectors General on Integrity and Efficiency
(CIGIE), a council of federal inspectors general that promotes collaboration on integrity,
economy, and efficiency issues that transcend individual agencies. The IG and Deputy IG
regularly participated in monthly CIGIE meetings, quarterly Legislative Branch Inspectors
General meetings, and periodic meetings with other OIGs designed to address issues
common to smaller OIGs. The Deputy IG participated in quarterly Deputy IG meetings. The
AIGI regularly participated in quarterly CIGIE Investigations Committee and AIGI Committee
meetings. The IG Counsel also participated in monthly Council of Counsels to Inspectors
General meetings.




4                                                                   OIG-14-1SP Semiannual Report
AUDIT PEER REVIEW ACTIVITIES


Government Auditing Standards require that each organization performing audits in
accordance with these standards must have an external peer review. The objectives of a
peer review are to determine whether an effective quality control system has been
established in the office and if policies, procedures, and applicable government auditing
standards are followed. Peer reviews must be performed at least once every 3 years by
reviewers independent of the audit organization being reviewed. The OIG has not
undergone a peer review but in April 2013 formally requested a peer review of our audit
operations.

ACTIVITIES WITHIN THE UNITED STATES COMMISSION ON CIVIL RIGHTS


The Consolidated and Further Continuing Appropriations Act of 20123 designated the
Inspector General of the Government Accountability Office to serve as the Inspector
General of the U.S. Commission on Civil Rights (Commission).4 The IG reports to the
Commission and Congress in a separate semiannual report pursuant to the Inspector
General Act of 1978, as amended.

GAO ACTIONS ON OIG RECOMMENDATIONS

Timely resolution of outstanding audit recommendations continues to be a priority for both
our office and the agency. During the semiannual reporting period, OIG closed two
recommendations we made to GAO in prior reporting periods. The status of actions planned
and taken by GAO in response to open recommendations is presented in table 3.




3
    Pub. L. No. 112-55, 125 Stat. 552, 628 (Nov. 18, 2011).
4
    5 U.S.C. app.



5                                                             OIG-14-1SP Semiannual Report
Table 3: Status of Agency Actions on Open Recommendations, as of September 30, 2013

 OIG audit reports                                      Open recommendations Status of actions
                                                                             planned and taken by
                                                                             GAO in response to the
                                                                             recommendations
 Human Capital: Opportunities Exist to Strengthen       Incorporate the use of       GAO issued its Human
 Controls over Recruitment, Relocation, and Retention   recruitment, relocation,     Capital Strategic Plan
 Incentives, OIG-12-5 (Aug. 28, 2012)                   and retention incentives     2013-2015 in July 2013.
                                                        into GAO’s strategic         The strategic plan
                                                        human capital planning to    identified the use of
                                                        specify a plan for their     incentives to support the
                                                        use, the results GAO         agency’s recruitment and
                                                        expects to achieve, and      hiring goals. In addition,
                                                        the measures that will be    GAO is developing an
                                                        used to assess their         action plan that specifies
                                                        effectiveness.               how the agency intends to
                                                                                     use incentives to support
                                                                                     its recruitment and hiring
                                                                                     goals, the results the
                                                                                     agency expects to
                                                                                     achieve, and the
                                                                                     measures that it will use to
                                                                                     gauge their effectiveness.
 Security Clearances: Actions Needed to Strengthen      Establish and implement      Actions taken in response
 Controls over Top Secret Security Clearance            detailed procedures that     to the recommendations
 Requirements, OIG-13-3 (Sept. 27, 2013)                define consistent criteria   are expected to be
                                                        and processes to ensure      reported to the OIG within
                                                        that the agency’s position   60 days of the report
                                                        designation and position     issuance date.
                                                        sensitivity policies are
                                                        carried out.

                                                        Establish procedures to
                                                        ensure that decisions to
                                                        grant top secret security
                                                        clearances are grounded
                                                        in written justifications.
Source: OIG.




6                                                                        OIG-14-1SP Semiannual Report
ATTACHMENT

                 Summary of OIG Reports and GAO Actions
           Reports Issued April 1, 2013, through September 30, 2013

Security Clearances: Actions Needed to Strengthen Controls over Top Secret Security
Clearance Requirements, OIG-13-3, (Sept. 27, 2013)

Findings: While GAO has established a policy to review and validate security clearances, it
does not provide detailed procedures for designating positions as sensitive (i.e., to require a
security clearance). Our work showed that the Director, Office of Security (OS) grants and
renews top secret security clearances solely based on security clearance requests from unit
heads. OIG found that decisions by the Director, OS to grant or renew top secret clearances
in fiscal year 2012 were, for the most part, made without justification to support employees’
needs for access to top secret information. Without these controls, GAO has no reasonable
assurance that only employees who need access to top secret information are granted top
secret clearances.

Recommendations and GAO Actions: OIG recommended that the Comptroller General
direct the Chief Administrative Officer to oversee the establishment and implementation of
detailed procedures that define consistent criteria and processes to ensure that the agency’s
position designation and position sensitivity policies are carried out. OIG also recommended
that GAO establish procedures to ensure that decisions to grant top secret security
clearances are grounded in written justifications. Such documentation should include
sufficient support to demonstrate each employee’s need for access to top secret
information. GAO concurred with our recommendations and described actions planned to
address them. In written comments to our draft report, GAO stated that the agency has
assembled a team of key senior managers to evaluate the agency’s current policies and
procedures to determine what changes are needed to improve oversight and monitoring of
the security clearance issuance and renewal process. Actions taken in response to the
recommendations are expected to be reported to the OIG within 60 days of the report
issuance date.




7                                                              OIG-14-1SP Semiannual Report
                      To report fraud, waste, and abuse in GAO’s internal operations, do one of
Reporting Fraud,      the following. (You may do so anonymously.)
Waste, and Abuse in
                      •   Call toll-free (866) 680-7963 to speak with a hotline specialist,
GAO’s Internal            available 24 hours a day, 7 days a week.
Operations
                      •   Online at: https://OIG.alertline.com.

                      To obtain copies of OIG reports and testimony, go to GAO’s Web site:
Obtaining Copies of   www.gao.gov/about/workforce/ig.html.
OIG Reports and
Testimony
                      Chuck Young, Managing Director, youngc1@gao.gov, (202) 512-4800
Public Affairs        U.S. Government Accountability Office, 441 G Street NW, Room 7149,
                      Washington, DC 20548
